         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       EPA Should Revise
       Outdated or Inconsistent
       EPA-State Clean Water Act
       Memoranda of Agreement
       Report No. 10-P-0224

       September 14, 2010
Report Contributors:                           Dan Engelberg
                                               Kathlene Butler
                                               Charles Brunton
                                               Anthony Chirigotis
                                               Julie Hamann
                                               Melba Reed




Abbreviations

CFR         Code of Federal Regulations
CWA         Clean Water Act
EPA         U.S. Environmental Protection Agency
GAO         U.S. Government Accountability Office
MOA         Memorandum of Agreement
NPDES       National Pollutant Discharge Elimination System
OECA        Office of Enforcement and Compliance Assurance
OIG         Office of Inspector General
OW          Office of Water
                       U.S. Environmental Protection Agency 	                                             10-P-0224
                                                                                                  September 14, 2010
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment

Why We Did This Review
This review is part of a series the
                                      EPA Should Revise Outdated or
Office of Inspector General is        Inconsistent EPA-State Clean Water Act
conducting of U.S.
Environmental Protection              Memoranda of Agreement
Agency (EPA) oversight of State
enforcement programs. We              What We Found
assessed whether EPA’s
memoranda of agreement                NPDES MOAs between EPA and States do not ensure Agency management
(MOAs) with States related to the     control and effective oversight over a national program administered by States
National Pollutant Discharge          that is capable of providing equal protection to all Americans. EPA
Elimination System (NPDES)            Headquarters does not hold EPA regional or State offices accountable for
program impede consistent EPA-        updating their MOAs when necessary and relies on other planning and
State enforcement and to what         management mechanisms to exercise control over State programs. However,
degree MOAs comply with               MOAs are critical because they are the common denominator for State-
federal requirements under the        authorized programs and should represent a common baseline. Outdated
Clean Water Act (CWA).                MOAs or MOAs that are not adhered to reduce EPA’s ability to maintain a
                                      uniform program across States that meets the goals of CWA sections 101 and
Background                            402. An effective national program must maintain consistent management
                                      control and oversight of State programs.
The CWA allows EPA to
authorize States to operate the
                                      What We Recommend
NPDES program if States meet
certain criteria. States cannot
                                      We recommend that EPA ensure that all NPDES MOAs contain essential
operate NPDES programs on
                                      elements for a nationally consistent enforcement program, including CWA,
behalf of EPA without an
                                      Code of Federal Regulations, and State Review Framework criteria. We
authorizing MOA. MOAs should
                                      recommend that EPA develop and provide a national template and/or guidance
establish the foundation for EPA
                                      for a model MOA; direct EPA regions to revise outdated or inconsistent MOAs
management control and
                                      to meet the national template and standards; and establish a process for
oversight, ensure that CWA goals
                                      periodic review and revision of MOAs, including when the CWA or Code of
are being met, and ensure
                                      Federal Regulations are revised or when State programs change. Finally, we
national consistency of State
                                      recommend that EPA establish a national, public clearinghouse of all current
NPDES programs.
                                      MOAs so that EPA, States, and the public have access to these documents.
For further information,
contact our Office of                 EPA generally agreed with our recommendations, saying it would coordinate
Congressional, Public Affairs and     assessment and revision of NPDES MOAs with implementation of the CWA
Management at (202) 566-2391.         Action Plan. Three recommendations are open and one recommendation is
                                      listed as undecided. In its final response to this report, EPA should provide
To view the full report,
click on the following link:          estimated or actual completion dates for all recommendations.
www.epa.gov/oig/reports/2010/
20100914-10-P-0224.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                  THE INSPECTOR GENERAL



                                        September 14, 2010

MEMORANDUM

SUBJECT: 	             EPA Should Revise Outdated or Inconsistent EPA-State
                       Clean Water Act Memoranda of Agreement
                       Report No. 10-P-0224


FROM: 	                Arthur A. Elkins, Jr.
                       Inspector General

TO: 	                  Bob Perciasepe
                       Deputy Administrator


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time and adding travel costs – is
$660,519.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public Website,
along with our comments on your response. Your response should be provided in an Adobe
PDF file that complies with the accessibility requirements of section 508 of the Rehabilitation
Act of 1973, as amended. If your response contains data that you do not want to be released to
the public, you should identify the data for redaction. We have no objections to the further
release of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Wade Najjum
at (202) 566-0832 or najjum.wade@epa.gov, or Dan Engelberg at (202) 566-0830 or
engelberg.dan@epa.gov.
EPA Should Revise Outdated or Inconsistent                                                                                  10-P-0224
EPA-State Clean Water Act Memoranda of Agreement



                                  Table of Contents 


Chapters 

   1    Introduction ........................................................................................................      1         


                Purpose .......................................................................................................    1             

                Background .................................................................................................       1             

                Scope and Methodology..............................................................................                4             


   2    Outdated or Inconsistent MOAs Impede Enforcement...................................                                        6         


                MOAs Are Missing Key Regulatory Requirements......................................                                 6

                Most MOAs Are Outdated ...........................................................................                 8

                MOAs Are Inconsistent across Regions and States....................................                               11 

                Some MOAs Contain Provisions that Are Inconsistent with the CWA.........                                          12 

                Some EPA Regions Do Not Use MOAs to Manage State
                  Enforcement Programs...........................................................................                 12 

                EPA Could Establish a National Baseline for CWA Implementation
                  with an MOA Template ...........................................................................                14 

                Conclusion...................................................................................................     15             

                Recommendations ......................................................................................            15             

                Agency Response and OIG Comment ........................................................                          16 


   Status of Recommendations and Potential Monetary Benefits..............................                                        17     




Appendices 

   A    List of CFR Criteria for MOA Assessment .......................................................                           18     


   B    Detailed Methodology ........................................................................................             21     


   C    OIG Analysis of MOAs by CFR Section ...........................................................                           24     


   D    Agency Response and OIG Comment .............................................................                             26     


   E    Distribution ........................................................................................................     30     

                                                                                   10-P-0224 





                                Chapter 1

                                 Introduction

Purpose
          We sought to determine the degree to which Clean Water Act (CWA) National
          Pollutant Discharge Elimination System (NPDES) memoranda of agreement
          (MOAs) between the U.S. Environmental Protection Agency (EPA) and States
          comply with federal requirements, and whether MOAs impede EPA’s ability to
          exercise consistent management controls and oversight of State enforcement
          activities. Past reviews by the EPA Office of Inspector General (OIG) and others
          identified widespread enforcement problems. Although there are many causes for
          this common pattern of noncompliance, the EPA Office of Enforcement and
          Compliance Assurance (OECA) identified poor quality MOAs between EPA and
          States as one impediment to consistent enforcement. OECA requested that the
          EPA OIG evaluate the issue. This evaluation is part of a series of OIG reviews of
          EPA oversight of State enforcement programs.

Background
          EPA is the responsible agency for implementing the 1972 CWA. Congress
          designed the CWA to restore and maintain the chemical, physical, and biological
          integrity of the Nation’s waters. As part of the CWA, the NPDES program
          regulates pollution to waterbodies. The CWA allows EPA to authorize States,
          tribes, and territories to operate the NPDES program if these entities demonstrate
          they have the authority and capability to run the program, and if their
          environmental enforcement authorities are at least as stringent as federal law.
          Both the U.S. Government Accountability Office (GAO) and the EPA OIG have
          frequently reported on problems with EPA-State enforcement.

          MOAs, which are part of the States’ application for NPDES authorization, are
          required, foundational documents between EPA and States. They define baselines
          and set collaborative expectations for program characteristics, permitting,
          monitoring, inspections, and enforcement, and are required by a unique set of
          federal regulations. Title 40 Code of Federal Regulations (CFR) Part 123,
          designed for the NPDES program, sets out MOAs as an instrument for ensuring
          that EPA and States adhere to the CWA. EPA’s Deputy Administrator has overall
          authority for directing regional offices to revise MOAs.




                                           1

                                                                              10-P-0224 



CWA Enforcement Is Principally Implemented by States, but EPA
Retains Authority

EPA has a vital role in ensuring that States, which largely implement the CWA,
implement nationally consistent programs that offer equal protection from
pollution to all Americans. EPA has given NPDES authority to 46 States and the
U.S. Virgin Islands, beginning with California in May 1973 and most recently
giving authority to Alaska in October 2008. As envisioned by Congress in the
CWA, States form the first line of environmental defense: States take the
majority of inspection and enforcement actions in the programs they implement.
However, EPA does not forfeit its authority to independently review and overrule
permits, conduct compliance inspections, issue violations, or take enforcement
actions when it authorizes a State program. EPA remains responsible for ensuring
that States operate NPDES programs in a manner that achieves national
enforcement goals, protects public health and the environment, and is consistent
with the CWA and the CFR.

EPA is the primary entity that can ensure national consistency. National
consistency offers equal protection from pollution to all Americans, and is also
vital to establishing a level playing field for regulated facilities so that no State
has an economic advantage.

Authorization MOAs Establish the Foundation for Consistent
Management Control

Office of Management and Budget guidance directs government agencies to
operate programs using adequate management controls to ensure effective
program operation. Management controls involve planning, oversight, and
reporting systems. As part of a system of national management controls, the CFR
requires authorization MOAs between EPA and every State operating an NPDES
enforcement program. NPDES authorization MOAs (hereafter referred to as
MOAs) must contain and meet relevant regulatory provisions. The CFR outlines
a national baseline and expectations for the roles and responsibilities of EPA and
States for the NPDES program. MOAs provide a foundation for national
consistency for NPDES program enforcement. For example, MOAs must not
contain any provisions restricting EPA’s statutory oversight responsibility. In
addition, renegotiation of MOAs can occur at any time to accommodate changes
in federal and State laws and EPA-State agreements. The CFR states that no
EPA-State agreement may override the MOA and requires the MOA, the annual
program grant, and other EPA-State agreements should be consistent. See
Appendix A for a list of CFR criteria for MOAs.

Although the foundations of the EPA-State enforcement relationship are built
upon authorization agreements and the accompanying MOAs, EPA and States
also use other annual and multiyear planning tools to set short-term expectations,
establish measures, and set performance goals. The annual and multiyear



                                   2

                                                                                                   10-P-0224 



                planning documents used by EPA regions and States vary by region and by State
                and are not required by regulation. A senior EPA official described the EPA-
                State NPDES relationship as a “layer cake,” with several layers of documents and
                agreements. The official said that EPA plans to address the multilayered EPA-
                State structure by simplifying the State-EPA enforcement process and
                accompanying document requirements.

                EPA’s Enforcement Performance Has Been Questioned

                In 2005, EPA initiated the State Review Framework, a formal process using
                standardized criteria, collaboratively developed by OECA, EPA regions, States,
                and the Environmental Council of the States, to gauge State performance in
                compliance assurance and enforcement. EPA wanted to increase its oversight
                inspections and other direct actions in the States. EPA reviewed State data,
                inspection and enforcement files, negotiated commitments, management
                discussions with the State, and other existing assessments. Through its reviews,
                EPA identified four programmatic deficiencies in State enforcement: data
                quality, identification of significant violations, the timeliness of enforcement
                actions, and penalties.

                In October 2009, the EPA Administrator testified before the House Transportation
                and Infrastructure Committee that EPA was falling short of expectations for
                effective and fair enforcement of the CWA:

                         Data available to EPA shows that, in many parts of the country,
                         the level of significant non-compliance with permitting
                         requirements is unacceptably high and the level of enforcement
                         activity is unacceptably low. For example, one out of every four
                         of the largest Clean Water Act dischargers had significant
                         violations in 2008. Many of these violations were serious
                         effluent violations or failure to comply with enforcement orders.
                         The government’s enforcement response to these violations is
                         uneven across the country. For example, a violation in one State
                         results in the assessment of mandatory minimum penalties, while
                         in another State, no enforcement action is taken for the same
                         violation. This situation creates a competitive disadvantage for
                         States that are enforcing the law. We need to change this. Strong
                         and fair compliance and enforcement across the country is vital
                         to establishing a level playing field for industrial facilities,
                         preventing some regions from attempting to achieve an economic
                         advantage over others.1



1
 Testimony of Lisa P. Jackson, Administrator, U.S. Environmental Protection Agency, Before the Committee on
Transportation and Infrastructure, U.S. House of Representatives, October 15, 2009.
http://www.epa.gov/ocir/hearings/testimony/111_2009_2010/2009_1015_lpj.pdf.


                                                      3

                                                                                                     10-P-0224 



                 Both GAO and the EPA OIG have frequently reported on problems with the EPA-
                 State enforcement relationship, noting key issues such as data quality,
                 identification of violations, issuing enforcement penalties and other enforcement
                 actions in a timely and appropriate manner, and general oversight issues. See
                 Appendix B for a list of reports on these issues.

                 In its October 2009 testimony before the House Transportation and Infrastructure
                 Committee, GAO reported that longstanding issues impact EPA and State
                 enforcement efforts.2 For example, findings from a GAO enforcement report in
                 2000 demonstrated that local variations among EPA’s regional offices led to
                 inconsistencies in the actions they take to enforce environmental requirements.3
                 In 2004, the EPA OIG responded to a congressional request to review the Region
                 3 NPDES program.4 In part, the OIG found that the MOAs between the States
                 and Region 3 were all more than 10 years old at the time and included outdated
                 requirements. These MOAs had not been revised as of the date of this report.

Scope and Methodology
                 EPA provided the OIG with the 46 State MOAs that were in force at the time we
                 began this evaluation, as well as South Carolina’s draft revised MOA.

                 The OIG identified 46 regulatory requirements that apply to State NPDES
                 enforcement programs. These requirements are contained in Title 40 CFR
                 Sections 123.24, 123.26, and 123.27 and were the criteria by which we reviewed
                 the 46 MOAs. See Appendix A for the list of criteria.

                 The criteria fall into two categories. The first category consists of requirements
                 for MOA documents themselves (Title 40 CFR 123.24), and the second category
                 consists of criteria that while not required to be contained within MOA
                 documents, are required for NPDES programs themselves (Title 40 CFR 123.26
                 and 123.27). We excluded two CFR criteria in these sections because they
                 pertained specifically to States with federally recognized Indian tribes.5

                 The OIG rated each of the 46 MOAs for inclusion of statements addressing each
                 regulation. For each of the 46 criteria, the OIG rated the MOA as a “0” (does not
                 address this element), “1” (addresses the element in some way), or “2” (addresses

2
  Testimony of Anu K. Mittal, Director, Natural Resources and Environment Team, U.S. Government
Accountability Office, Before the Committee on Transportation and Infrastructure, U.S. House of Representatives,
“Clean Water Act: Longstanding Issues Impact EPA and States’ Enforcement Efforts,” October 15, 2009.
3
  GAO, Longstanding Issues Impact EPA’s and States’ Enforcement Efforts, GAO-10-165T, October 15, 2009.
4
  EPA-OIG, Congressionally Requested Review of EPA Region 3's Oversight of State National Pollutant Discharge
Elimination System Permit Programs, Report No. 2005-S-0002, October 29, 2004.
5
  Title 40 CFR 123.24(b)(1)(ii) says that where a State is authorized to issue permits on the Federal Indian
reservation of the Indian tribal seeking approval, MOAs should include provisions for transferring relevant
information if the Indian Tribe does not already have the documents. We excluded this criterion from the 46-State
analysis. Title 40 CFR 123.27(e) is intended for inclusion in joint State-tribe-EPA MOAs or tribal-EPA MOAs. We
excluded it as well based on the rationale above.


                                                       4

                                                                       10-P-0224 



the element verbatim or in synonymous language). Each MOA thus received an
overall score in our analysis based on a maximum of 92 points. The OIG does not
deem this evaluation system comprehensive of all CFR and other requirements.
However, the system serves as one indicator of MOA comprehensiveness. The
OIG did not evaluate other EPA-State agreements for their inclusion of criteria
not contained in MOAs.

The OIG also gathered evidence from interviews with EPA and external
environmental groups. EPA interviews included the Deputy Administrator;
OECA officials; and EPA personnel in Regions 1, 4, 8, and 10. Environmental
groups interviewed were the Association of State and Interstate Water Pollution
Control Administrators, the Environmental Council of the States, and the
Environmental Integrity Project. These groups were selected for OIG interviews
because they are key stakeholders and liaisons for State-EPA enforcement issues.

The OIG conducted this evaluation in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
our work to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and
conclusions based on our evaluation objective. We conducted our evaluation
from October 2009 through June 2010.

For additional information about our methodology, see Appendix B.




                                5

                                                                                    10-P-0224 





                                 Chapter 2

              Outdated or Inconsistent MOAs 

                  Impede Enforcement 


         MOAs between EPA and States that are out of date or inconsistent hinder Agency
         management control and effective oversight over a national program administered
         by States that is capable of providing equal protection to all Americans. EPA
         does not hold regional or State offices accountable for updating their MOAs when
         necessary and relies on other planning and management mechanisms to exercise
         control over State programs. However, MOAs are critical because they are the
         common denominator for State-authorized programs and should represent a
         common baseline. MOAs that are outdated MOAs or not adhered to reduce
         EPA’s ability to maintain a uniform program across States that meets the goals of
         CWA sections 101 and 402.

MOAs Are Missing Key Regulatory Requirements
         MOAs were missing key requirements of Title 40 CFR 123.24. MOA documents
         also lacked MOA-specific program regulations contained in Title 40 CFR 123.26
         and 123.27. For each of the 46 criteria, OIG rated the MOA as a “0” (does not
         address this element), “1” (addresses the element in some way), or “2” (addresses
         the element verbatim or in synonymous language). Figure 2-1 shows that across
         all regulatory criteria, MOAs did not contain 39 percent of the criteria, and that 61
         percent of regulatory criteria are either not addressed or only partially addressed.
         EPA should define the requirements for management control of a nationally
         consistent enforcement program, and then review each State MOA to determine
         which MOAs are adequate and which MOAs need to be revised.

         Figure 2-1: Degree to Which MOAs Meet Regulatory Requirements




          37%                              39%
                                                         Number of 0s
                                                         Number of 1s
                                                         Number of 2s




                          24%

         Source: OIG assessment of NPDES MOAs.




                                           6

                                                                         10-P-0224 




MOAs did not address key regulatory requirements for MOA documents. For
example, the CFR requires that States establish data management systems to
support their compliance evaluation activities. Twenty percent of the MOAs did
not contain any language about a data management system. This does not mean
the State does not have such a system or that the system is not discussed in
another document. However, because the primary, required document, the MOA,
does not mention it, EPA cannot readily determine whether there is nationwide
uniformity in data management systems.

MOAs also did not include a number of the additional regulatory program
requirements contained in Title 40 CFR 123.26 and 123.27. These additional
requirements correspond to the programmatic deficiencies that OECA identified
in its first-round State Review Framework evaluations (data quality, identification
of significant violations, the timeliness of enforcement actions, and penalties).
For example, the CFR requires that States establish minimum civil penalty
policies, such as the ability to assess at least a $5,000 penalty per day for each
NPDES violation. The State Review Framework identified penalty calculation as
a comprehensive weakness. Fifty-four percent of MOAs did not include any
language about minimum civil penalty standards (i.e., received a score of “0” for
this element). Only 1 of the 46 MOAs specified that the minimum penalty per
day, per violation, would be $5,000 (a score of “2”).

MOAs most comprehensively addressed the MOA-specific regulations (CFR
123.24), containing these requirements 77 percent of the time. MOAs contained
fewer requirements in the non-MOA-specific monitoring and inspections section
(65 percent for CFR 123.26) and fewest in the enforcement section (36 percent for
CFR 123.27). For example, 63 percent of the MOAs did not include language
verifying that no other State enforcement agreement could override the MOA, as
required by CFR 123.24(c). Eighty percent of MOAs did not note whether the
State had the authority to enter any permitted facility (123.26(c)). Figure 2-2
shows how the percentage of missing regulations varied according to the CFR
section under review.




                                 7

                                                                                                         10-P-0224 



        Figure 2-2: Distribution of Scores by CFR Section
         Title 40 CFR 123.24                   Title 40 CFR 123.26                      Title 40 CFR 123.27

                                                                                           12%
                            23%

                                          40%

                                                                     35%


                                                                                  24%

      56%

                                                                                                             64%
                                21%
                                                              25%





         Source: OIG assessment of NPDES MOAs.



                  Although the regulations listed in CFR 123.26 and 123.27 are not required to be
                  included in MOA documents, the confluence of the overarching State Review
                  Framework issues and the missing regulations in MOAs leads us to believe that
                  State enforcement programs would be improved by standardizing and
                  renegotiating authorization MOAs to include language addressing these
                  regulations.6

Most MOAs Are Outdated
                  The CFR provides that EPA and States can revise MOAs at any time, and
                  89 percent of the MOAs that we reviewed contained a statement to that effect.
                  However, existing MOAs do not contain any time-set periodic reevaluation
                  clauses. EPA Headquarters has not advised regions to revisit MOAs to ensure
                  that they are relevant, nor has it developed a periodic review process to ensure
                  that MOAs remain up to date. As a result, most initial MOAs have not been
                  revised. EPA should establish a process for regularly reviewing the adequacy of
                  existing MOAs and ensuring that MOAs keep up with changing regulations.



6
  Title 40 CFR 123.24(b)(1)(ii) says that where a State is authorized to issue permits on the Federal Indian
reservation of the Indian tribal seeking approval, MOAs should include provisions for transferring relevant
information if the Indian Tribe does not already have the documents. Our MOA assessment excluded this criterion
from the 46-State analysis. Nonetheless, of the 31 States with both federally recognized Indian tribes and delegated
NPDES programs, only 10 contained the necessary information pertaining to the possible transfer of the relevant
program information and permit files for Indian tribes. Title 40 CFR 123.27(e) is intended for inclusion in joint
State-tribe-EPA MOAs or tribal-EPA MOAs. We excluded it as well based on the rationale above. Five of the
State MOAs that we reviewed contained language pertinent to this CFR criterion.


                                                         8

                                                                                10-P-0224 



Few MOAs have been updated to address increasing State responsibilities under
the CWA, new NPDES programs, and the expanding CWA regulated universe,
which now includes the Storm Water Phase II implementation, concentrated
animal feeding operations, and concentrated aquatic animal production program
implementations. Further, many MOAs do not address how States should adapt
to the increasing number of regulated entities. MOAs should be written to
accommodate for program changes to avoid becoming invalid over time.

MOA quality increases with more recently negotiated MOAs because newer
MOAs more closely adhere to the most recent CFR requirements. One of the
earliest MOAs received the lowest overall score of 8.3 points (out of a possible
92), whereas the most recently negotiated MOA (Alaska, signed in 2008) received
an overall score of 75.3 points. Alaska’s MOA was generally modeled after the
current CFR requirements. The MOA earning 8.3 points in our scale, Kansas’s,
was signed in 1973 and has not been revised.

We found that 74 percent of active MOAs were authorized more than 10 years
ago (prior to 2000). Thirty-five percent of authorized States’ active MOAs were
signed in the 1970s, years before the CWA’s Storm Water, Sanitary Sewer
Overflow, and Combined Sewer Overflow provisions were established. These
MOAs have not been revised to include these newer CWA programs. See
Appendix C for State MOA authorization years and scores for MOAs by CFR
section. Figure 2-3 shows the general trend of improved adherence to CFR
requirements over time for all MOAs reviewed.


                Figure 2-3: MOA Total Score by Year Signed

                90

                80

                70

                60
    MOA Score




                50

                40

                30

                20

                10

                0
                1970   1975   1980   1985    1990   1995   2000   2005   2010
                                        Year Signed

                Source: OIG assessment of NPDES MOAs.




                                            9

                                                                                  10-P-0224 



         Because our analysis shows that older MOAs were more likely than newer MOAs
         to be deficient, EPA should consider MOA age to prioritize MOA renegotiations.
         Figure 2-4 shows that average MOA age varies by region, and suggests using age
         as an indicator of renegotiation priority.


Figure 2-4: MOA Average Signing Year by Region

  2010             All MOAs
                   are updated                       Some MOAs are                Most or all MOAs
                                                     outdated and require         are outdated and
  2000                                               updating                     require updating


  1990


  1980


  1970


  1960


  1950
           R1      R2     R3     R4      R5     R6      R7      R8          R9   R10

Source: OIG assessment of NPDES MOAs.



         Noting that the MOAs were outdated and contained language that limited EPA
         oversight, Region 4 independently updated and renegotiated the MOAs with all of
         its States. The renegotiated MOAs included several significant changes such as
         changing the definition for when EPA would initiate enforcement actions, adding
         new enforcement initiatives like the State Review Framework, changing data
         reporting requirements, and changing the method for tracking significant
         compliance issues. The Region uses the updated MOAs as foundational
         documents and the CWA section 106 plans for more detailed program
         information. The new MOAs clearly delineate roles and responsibilities and may
         improve EPA-State relationships.

         Region 4 did not seek Office of Water (OW) and OECA approval of these MOAs.
         According to an OW attorney, OW considered these revisions to be minor and the
         Region did not need approval. This determination was not documented. EPA
         does not have a policy that governs what sorts of changes require approval by OW
         and OECA and a process for documenting decisions. This reduces EPA’s
         management control over the content of these MOAs. To maintain nationally
         consistent control over all State NPDES programs, EPA needs a policy that
         governs Headquarters approval of revised MOAs and maintains control over


                                        10 

                                                                                      10-P-0224 



           changes in MOAs. On July 27, 2010, EPA’s response to this draft report
           indicated that OW has initiated efforts to clarify the delegation process as
           described in EPA Delegation 2-34.

MOAs Are Inconsistent across Regions and States
           MOAs vary among regions, creating differences in State enforcement programs.
           This variance can lead to differences in how the NPDES program is implemented
           throughout the country.

           Figure 2-5 shows that certain regions (regions are outlined in black) have higher-
           scoring MOAs than others, based on selected CFR criteria. For example, Region
           8 MOAs generally scored higher than Region 3 MOAs. Interregional variability
           stems from differing regional priorities that influence MOA negotiation and MOA
           age. Region 4’s recently renegotiated MOAs all scored between 50 and 70 points
           on our scale, whereas Region 3’s generally older MOAs all scored between 25
           and 44 points.

     Figure 2-5: MOA Scores by State and EPA Region




     Source: OIG assessment of NPDES MOAs.

           The figure also demonstrates interstate variability in MOA alignment with
           regulations. Similar to regional differences, interstate variability stems from State
           priorities as well as MOA age. Updated MOAs typically score over 50 points.



                                            11 

                                                                                    10-P-0224 



          For example, in Region 10 the highest-scoring MOA (Alaska) was the most
          recently updated MOA (2008), whereas the outdated MOAs in Oregon and
          Washington scored lowest. Oregon’s MOA, signed in 1973, scored 27.3 points,
          and Washington’s MOA, signed in 1989, scored 48.0 points.

Some MOAs Contain Provisions that Are Inconsistent with the CWA
          In addition to missing many regulatory requirements, a number of MOAs contain
          other language that is inconsistent with the CWA. Under the CWA, EPA retains
          responsibility and authority over CWA implementation and outcomes even when
          a State has received authorization. However, 17 percent of MOAs contain
          language that is worded to limit EPA’s authority to conduct inspection and
          enforcement activities in States. In a number of cases, this type of language has
          led to disagreements between EPA and States.

          For example, although the CFR states, “The Regional Administrator will normally
          notify the State at least 7 days before any such inspection,” South Carolina’s 1994
          MOA states, “EPA shall provide to the State at least thirty (30) days notice before
          a joint or independent inspection.” A Region 4 enforcement manager stated that
          this provision limited EPA’s enforcement authority. As a result, Region 4
          reduced this notice period in the proposed revision. In the draft South Carolina
          MOA, this provision was revised to state, “EPA will normally provide DHEC [the
          State Department of Health and Environmental Control] at least seven (7)
          calendar days notice before a joint or independent inspection is conducted.”

          Through the State Review Framework process, OECA found that some States
          believe that their MOAs preclude EPA enforcement action. OECA officials told
          us that when OECA has an unfavorable relationship with a State, the State
          sometimes uses its MOA as a justification to avoid taking the enforcement actions
          EPA feels are needed. In the face of inappropriate clauses in MOAs, EPA could
          take action in States based on its authority under the CWA. However, in some
          cases, EPA did not act; sensitive relationships between EPA regions and States
          led regions to look for other solutions.

Some EPA Regions Do Not Use MOAs to Manage State Enforcement
Programs
          Rather than establishing a consistent national approach to meet CWA goals, EPA
          has largely deferred control to regional offices. States and regions frequently do
          not use MOAs to manage or oversee State enforcement programs. MOAs should
          be foundational enforcement documents that regions and States use on a regular
          basis to clarify basic roles and responsibilities, and the CFR states that no other
          EPA-State documents can take precedence over MOAs.

          Managers in three of the four EPA regions we interviewed told us that they do not
          routinely refer to the MOAs to manage their State programs. In these regions,


                                           12 

                                                                          10-P-0224 



EPA managers used other types of agreements such as Performance Partnership
Agreements, Performance Partnership Grants, annual inspection and monitoring
plans, and National Program Guidance for State program oversight.

Some regional managers note MOA shortcomings. In Region 1, enforcement
program managers told us that MOAs do not guide State program management,
and regional personnel did not refer to MOAs. Managers see the original MOAs
as documents that defined the roles and responsibilities at the time of the
authorization and also laid out some basic expectations for the transfer of
documents. However, they used Performance Partnership Agreements and
periodic meetings instead of MOAs to manage State programs. Region 1
managers stated that they use other documents because program management
requires flexibility. The Region’s original MOAs were not updated to reflect
changes to the CWA throughout the years. However, the Region 1 manager
stated that MOAs are the basic underpinning of State authorization to run the
program. The manager said a strong, vibrant MOA should include clear
expectations, clear definition of roles/responsibilities, and clear descriptions of
accountability.

An EPA Region 8 enforcement official reported that MOAs were rarely used for
enforcement as compared with other agreements. An enforcement manager from
the Region reported that although all MOAs have standard statements that declare
that MOAs preclude other agreements, in practice, Performance Partnership
Agreements trump all other enforcement documents.

However, Region 8 and its States experienced conflicts over enforcement
authority. In one case, Region 8 did not hold Colorado accountable to its MOA.
During our interview, regional personnel reported that while they were
negotiating an ancillary enforcement agreement, Colorado asserted that EPA
relinquished the right to perform NPDES inspections and enforcement actions
once State authorization occurred. Even though this was programmatically
inaccurate and the MOA supported EPA’s position, regional personnel found it
was easier to “give up” on the agreement negotiations rather than to reiterate
EPA’s rights and authorities. One manager from the Region noted that MOAs
should have clearer delineations for EPA and State expectations for issuance of
notices of violation, and another said MOAs should contain provisions that better
delineate EPA and State facility inspections.

A Region 8 enforcement official also stated that many of its MOAs are more than
10 years old and should be renegotiated. The official added that although the
Region uses other documents, it would be beneficial to have a single, overarching
document to provide the basic agreement with additional documents providing the
necessary details on annual performance and operations. Moreover, a regional
enforcement manager suggested that MOAs should be periodically modified to
accommodate changes in the program.




                                 13 

                                                                                  10-P-0224 



          Although Region 10 NPDES managers did use the MOA for permitting, they did
          not use MOAs for enforcement program management. Instead, they used
          Performance Partnership Agreements, Performance Partnership Grants, and the
          National Program Guidance.

          When OECA began assessing MOAs, some were not available to EPA
          Headquarters. Therefore, these documents, which show how EPA and States
          manage enforcement, were also not readily available to the public for review or
          comparison. EPA could improve transparency and accountability by maintaining
          a publicly available MOA repository where all States, EPA regions, and the
          public can access the documents.

          The problem with MOAs is cyclical: one reason regional enforcement managers
          do not use MOAs is that they are not updated to reflect current CWA amendments
          pertinent to new NPDES program requirements and subsequent CFR additions,
          and MOAs are outdated because regions have not used them regularly enough to
          target them for improvement.

EPA Could Establish a National Baseline for CWA Implementation
with an MOA Template
          EPA faces a significant challenge: to implement a nationally consistent
          enforcement program that offers equal protection from pollution to all Americans.
          By renegotiating outdated or inconsistent MOAs according to a national template,
          EPA can establish a current baseline for national consistency. A national
          template could also ease the MOA negotiation process. EPA should identify the
          key requirements that should be delineated in MOAs, including the other
          programmatic concerns disclosed through the CFR and issues uncovered during
          OECA’s State Review Framework, and incorporate them into a national template.

          The officials of OECA, EPA regions, and State organizations we spoke with agree
          that MOAs are out of date and should be renegotiated, but OECA also pointed out
          that the process could face State resistance because it might require considerable
          resources. Enforcement managers and officials in two of the four regions we
          spoke with indicated that MOA renegotiation would be a low priority for them
          and would require them to remove resources from other enforcement activities.
          However, in our opinion, the management control benefit justifies the resource
          requirement. For example, as a result of renegotiating MOAs, Region 4
          enforcement staff reported that they improved baseline management control over
          EPA-State enforcement relationships. In the face of a disagreement over
          responsibilities, regional staff said they show State program staff where an
          enhanced requirement is written in the updated MOA, and the State program staff
          then carry out the requirement.

          Staff from each region we interviewed and other stakeholders agreed that an EPA
          Headquarters model MOA would be beneficial in determining MOA adequacy.


                                          14 

                                                                                 10-P-0224 



         Region 4 developed a regional template for use in its MOA renegotiations.
         Regional enforcement officials reported that the template did not change much
         between the beginning and end of negotiations. A Region 10 enforcement
         program manager suggested that a model MOA that would serve as a foundational
         reference document could help to clarify the core oversight responsibilities.
         Region 10 staff stated that a model MOA could identify EPA and State
         expectations with respect to inspection, timely follow-up, data quality,
         transparency, and adequate response. In addition, the Environmental Council of
         the States said its member States would be interested in discussing a model MOA.

Conclusion
         The current state of the MOAs means that EPA cannot assure it has effective
         management control over State programs that assures the public that CWA
         objectives are being achieved. EPA has not established a national template
         defining the key requirements necessary for current, robust MOAs. In addition,
         EPA has not developed a periodic review system to determine which MOAs
         remain adequate and which need to be revised to remain current with changing
         regulations. MOAs should establish the foundations for nationally consistent
         enforcement, defining the baseline roles and responsibilities for EPA and States.
         MOAs should also be the basis for assessing States’ ability and commitment to
         administer EPA’s NPDES program in accordance with the CWA. The CFR
         requires MOAs to outline the basic parameters of the EPA-State relationship and
         ensure CWA goals are being met through State-authorized programs. To ensure
         that MOAs fulfill their intended function, EPA must put in place a system that
         maintains and oversees consistent management controls over State programs. To
         ensure transparency and accountability, EPA should maintain a publicly available
         MOA repository, making these documents available to all States, EPA regions,
         and the public.

Recommendations
         We recommend that the Deputy Administrator:

                2-1	   Develop a national MOA template including essential
                       requirements derived from the updated CWA, CFR requirements,
                       and State Review Framework findings.

                2-2	   Develop a systematic approach to identify which States have
                       outdated or inconsistent MOAs; renegotiate and update those
                       MOAs using the MOA template; and secure the active
                       involvement and final, documented concurrence of Headquarters to
                       ensure national consistency.




                                         15 

                                                                               10-P-0224 



               2-3	    Establish a process for reviewing MOAs on a regular basis, taking
                       into account legislative and management changes that affect the
                       adequacy of the MOA.

               2-4 	   Maintain a publicly available repository of MOAs.

Agency Response and OIG Comment
        EPA’s Deputy Administrator provided the Agency response, coordinating
        comments from OECA and OW. The Deputy Administrator generally agreed
        with these recommendations and provided an outline of corrective actions that he
        would take in response to the recommendations.

        The Deputy Administrator agreed with recommendations 2-1, 2-3, and 2-4.

        In response to recommendation 2-2, the Deputy Administrator stated that
        renegotiating MOAs with States can be time consuming and may not be always
        be the best use of EPA resources. Deficiencies in State enforcement programs
        may be better addressed through other solutions and approaches. The Deputy
        Administrator proposed that OECA and OW integrate MOA assessment into a
        coordinated State program review process to identify and correct MOAs that
        present the greatest barriers to State program performance.

        The OIG responds by noting that the draft report and the final report both make
        mention of the other mechanisms EPA uses to manage programs, even noting that
        there is a layered system of management controls (see page 2, for example).
        However, the report emphasizes that while EPA uses other mechanisms, the only
        required mechanism is the authorization MOA. The way in which EPA regions
        and States use other mechanisms varies, but the MOA is the only document that
        each State must have. For this reason, it is important that authorization MOAs be
        up to date and compliant with the CFR.

        While acknowledging EPA’s need to maintain flexibility, the OIG believes that
        MOAs are a critical building block of State enforcement programs. Depending on
        how it is constructed, a systematic State program review process that contains a
        strategy for updating outdated or inconsistent MOAs could address our
        recommendation. We will list the status of recommendation 2-2 as “undecided,”
        and list the other recommendations as “open.” We look forward to a detailed
        strategy and timeline for implementation in the Agency’s 90-day response to this
        final report.




                                        16 

                                                                                                                                     10-P-0224



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                           POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                               Planned
    Rec.    Page                                                                                              Completion   Claimed    Agreed To
    No.      No.                         Subject                         Status1         Action Official         Date      Amount      Amount

    2-1       15    Develop a national MOA template including               O          Deputy Administrator
                    essential requirements derived from the updated
                    CWA, CFR requirements, and State Review
                    Framework findings.

    2-2      15     Develop a systematic approach to identify which         U          Deputy Administrator
                    States have outdated or inconsistent MOAs;
                    renegotiate and update those MOAs using the
                    MOA template; and secure the active involvement
                    and final, documented concurrence of
                    Headquarters to ensure national consistency.

    2-3       16    Establish a process for reviewing MOAs on a             O          Deputy Administrator
                    regular basis, taking into account legislative and
                    management changes that affect the adequacy of
                    the MOA.

    2-4      16     Maintain a publicly available repository of MOAs.       O          Deputy Administrator




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                17 

                                                                                                       10-P-0224


                                                                                                  Appendix A

               List of CFR Criteria for MOA Assessment1
         CFR          Criterion
    1    123.24(a)    MOA executed by the State Director and the Regional Administrator and approved by
                      Administrator
    2                 MOA meets all requirements of paragraph (b)
    3                 MOA has no provisions restricting EPA’s statutory oversight responsibility
    4    123.24(b)    Provisions for prompt transfer from EPA to the State of pending permit applications and
                      any other relevant program operation information
    5                 MOA contain procedure for transfer of any existing permits for administration
    6                 MOA contain specific procedure for transfer of administration if a State lacks
                      administration authority for permits issued by Federal government
    7                 MOA contain provisions specifying classes and categories of permit applications, draft
                      permits, and proposed permits for Regional Administrator review
    8                 MOA contain provisions specifying the frequency and content of reports, documents and
                      other information which the State is required to submit to EPA
    9                 MOA contain provisions allowing EPA to routinely review State records, reports, and files
                      relevant to the administration and enforcement of the approved program
    10                MOA contain provisions for coordination of compliance monitoring activities by the State
                      and by EPA and EPA inspection of select facilities or activities within State
    11                MOA contain procedures to assure coordination of enforcement activities
    12                MOA contain provisions, when appropriate, for joint processing of permits by the State
                      and EPA for facilities or activities which require permits from both EPA and the State
                      under different programs per § 124.4
    13                MOA contain provisions for modification of the MOA in accordance with this part
    14   123.24(c)    MOA, the annual program grant and the State/EPA Agreement should be consistent. If
                      the State/EPA Agreement indicates that a change is needed in the Memorandum of
                      Agreement, the Memorandum of Agreement may be amended through the procedures
                      set forth in this part.
    15                State/EPA Agreement cannot override MOA
    16   123.24(d)    MOA specify the extent to which EPA will waive its right to review, object to, or comment
                      upon State-issued permits under section 402(d)(3), (e) or (f) of CWA
    17   123.26(a)    State programs shall have procedures for receipt, evaluation, retention and investigation
                      for possible enforcement of all notices and reports required of permittees and other
                      regulated persons (and for investigation for possible enforcement of failure to submit
                      these notices and reports).
    18   123.26(b)    State programs shall have inspection and surveillance procedures to determine,
                      independent of information supplied by regulated persons, compliance or noncompliance
                      with applicable program requirements.
    19                The State shall maintain a program which is capable of making comprehensive surveys
                      of all facilities and activities subject to the State Director's authority to identify persons
                      subject to regulation who have failed to comply with permit application or other program
                      requirements. Any compilation, index or inventory of such facilities and activities shall be
                      made available to the Regional Administrator upon request;
    20                The State shall maintain a program for periodic inspections of the facilities and activities
                      subject to regulation.

1
    MOA assessment excludes the review of 123.24(b)(ii) and 123.27(e) as noted within the Scope and Methodology.


                                                        18
                                                                                                10-P-0224 



     CFR         Criterion
21               These inspections shall be conducted in a manner designed to: Determine compliance or
                 noncompliance with issued permit conditions and other program requirements;
22               These inspections shall be conducted in a manner designed to: Verify the accuracy of
                 information submitted by permittees and other regulated persons in reporting forms and
                 other forms supplying monitoring data; and
23               These inspections shall be conducted in a manner designed to: Verify the adequacy of
                 sampling, monitoring, and other methods used by permittees and other regulated
                 persons to develop that information;
24               The State shall maintain a program for investigating information obtained regarding
                 violations of applicable program and permit requirements; and
25               The State shall maintain procedures for receiving and ensuring proper consideration of
                 information submitted by the Public about violations. Public effort in reporting violations
                 shall be encouraged, and the State Director shall make available information on reporting
                 procedures.
26   123.26(c)   The State Director and State officers engaged in compliance evaluation shall have
                 authority to enter any site or premises subject to regulation or in which records relevant to
                 program operation are kept in order to copy any records, inspect, monitor or otherwise
                 investigate compliance with the State program including compliance with permit
                 conditions and other program requirements. States whose law requires a search warrant
                 before entry conform with this requirement.
27   123.26(d)   Investigatory inspections shall be conducted, samples shall be taken and other
                 information shall be gathered in a manner (e.g., using proper “chain of custody”
                 procedures) that will produce evidence admissible in an enforcement proceeding or in
                 court.
28   123.26(e)   Maintaining a comprehensive inventory of all sources covered by NPDES permits and a
                 schedule of reports required to be submitted by permittees to the State agency;
29               Initial screening (i.e., pre-enforcement evaluation) of all permit or grant-related
                 compliance information to identify violations and to establish priorities for further
                 substantive technical evaluation;
30               When warranted, conducting a substantive technical evaluation following the initial
                 screening of all permit or grant-related compliance information to determine the
                 appropriate agency response;
31               Maintaining a management information system which supports the compliance evaluation
                 activities of this part; and
32               Inspecting the facilities of all major dischargers at least annually.
33   123.27(a)   To restrain immediately and effectively any person by order or by suit in State court from
                 engaging in any unauthorized activity which is endangering or causing damage to public
                 health or the environment;
34               Note: This paragraph (a)(1) requires that States have a mechanism (e.g., an
                 administrative cease and desist order or the ability to seek a temporary restraining order)
                 to stop any unauthorized activity endangering public health or the environment.
35               To sue in courts of competent jurisdiction to enjoin any threatened or continuing violation
                 of any program requirement, including permit conditions, without the necessity of a prior
                 revocation of the permit;
36               To assess or sue to recover in court civil penalties and to seek criminal remedies,
                 including fines, as follows:
37               Civil penalties shall be recoverable for the violation of any NPDES permit condition; any
                 NPDES filing requirement; any duty to allow or carry out inspection, entry or monitoring
                 activities; or, any regulation or orders issued by the State Director. These penalties shall
                 be assessable in at least the amount of $5,000 a day for each violation.


                                                   19 

                                                                                                 10-P-0224 



     CFR         Criterion
38               Criminal fines shall be recoverable against any person who willfully or negligently violates
                 any applicable standards or limitations; any NPDES permit condition; or any NPDES filing
                 requirement. These fines shall be assessable in at least the amount of $10,000 a day for
                 each violation.
39               Criminal fines shall be recoverable against any person who knowingly makes any false
                 statement, representation or certification in any NPDES form, in any notice or report
                 required by an NPDES permit, or who knowingly renders inaccurate any monitoring
                 device or method required to be maintained by the Director. These fines shall be
                 recoverable in at least the amount of $5,000 for each instance of violation.
40   123.27(b)   The maximum civil penalty or criminal fine (as provided in paragraph (a)(3) of this
                 section) shall be assessable for each instance of violation and, if the violation is
                 continuous, shall be assessable up to the maximum amount for each day of violation.
41               The burden of proof and degree of knowledge or intent required under State law for
                 establishing violations under paragraph (a)(3) of this section, shall be no greater than the
                 burden of proof or degree of knowledge or intent EPA must provide when it brings an
                 action under the appropriate Act;
42   123.27(c)   A civil penalty assessed, sought, or agreed upon by the State Director under paragraph
                 (a)(3) of this section shall be appropriate to the violation.
43               Procedures for assessment by the State of the cost of investigations, inspections, or
                 monitoring surveys which lead to the establishment of violations;
44               In addition to the requirements of this paragraph, the State may have other enforcement
                 remedies. The following enforcement options, while not mandatory, are highly
                 recommended:
45   123.27(d)   Any State administering a program shall provide for public participation in the State
                 enforcement process by providing either:
46               Authority which allows intervention as of right in any civil or administrative action to obtain
                 remedies specified in paragraphs (a)(1), (2) or (3) of this section by any citizen having an
                 interest which is or may be adversely affected; or (2) Assurance that the State agency or
                 enforcement authority will: (i) Investigate and provide written responses to all citizen
                 complaints submitted pursuant to the procedures specified in §123.26(b)(4); (ii) Not
                 oppose intervention by any citizen when permissive intervention may be authorized by
                 statute, rule, or regulation; and (iii) Publish notice of and provide at least 30 days for
                 public comment on any proposed settlement of a State enforcement action.




                                                   20 

                                                                                         10-P-0224 



                                                                                    Appendix B

                             Detailed Methodology
The OIG initially received 45 State MOAs from OECA. OECA collected the MOAs in 2009 by
contacting EPA’s Water Permitting Division. OECA confirmed that it received current,
executed MOAs by contacting regional staff. MOAs were not collected for Connecticut and
South Carolina, though OECA later received Connecticut’s current MOA. Region 1 was unable
to confirm whether the MOAs that had been collected were the most current executed
documents. OECA attributed this to the fact that MOAs are rarely used, and the people who
originally developed and worked on them are no longer with the Region. When the OIG later
interviewed Region 1 water enforcement staff and officials, they reported that they had all of
their current MOAs. We received the 1994 South Carolina MOA directly from Region 4, where
enforcement officials were still negotiating revisions to the document. OIG reviewed both the
1994 and newly revised unapproved MOA but only used the 1994 approved MOA for our
quantitative analysis.

The OIG selected 46 criteria from three Title 40 CFR sections (123.24, 123.26, and 123.27). The
OIG chose these sections because they represent state NPDES program requirements: agreement
with the regional administrator, compliance requirements, and enforcement authority
requirements for States that have been authorized NPDES programs. The OIG did not evaluate
other annual or multiyear EPA-State agreements.

We excluded two CFR criteria from Title 40 CFR sections 123.24 and 123.27 from our MOA
Assessment to reflect the fact that not all States have federally recognized Indian tribes and thus
create parity across all States. Title 40 123.24(b)(1)(ii) says that where a State is authorized to
issue permits on the Federal Indian reservation of the Indian tribal seeking approval, MOAs
should include provisions for transferring relevant information if the Indian Tribe does not
already have the documents. Title 40 CFR 123.27(e) says that where Indian tribes cannot satisfy
the criminal enforcement authority requirements in section 123.27 of the CFR, they may still
receive program authority from EPA if they meet other enforcement authority criteria (See 40
CFR 123.34).

The requirements included in CFR sections 123.24, 123.26, and 123.27 indicate the requirements
for States to receive the CWA enforcement authorization. CFR section 123.24 indicates the
requirements MOA content for NPDES program approval and management, 123.26 indicates the
regulations States must follow to demonstrate an adequate compliance inspection and monitoring
program, and 123.27 indicates the regulations States must follow to demonstrate that they can
take timely and appropriate enforcement actions. Because each EPA regional office negotiated
MOAs differently, OIG believes that the extent to which required language from these three
sections is included in MOAs may vary.

The selected CFR sections define the scope of the OIG review by focusing analysis on MOA
requirements and also addressing the issues raised in OECA’s State Review Framework: data,
identification of significant violations, penalty assessment, and timely and appropriate
enforcement actions. By confirming and qualifying whether each MOA contained adequate


                                                21 

                                                                                       10-P-0224 



provisions addressing each requirement, OIG addressed the completeness of MOAs and also
assessed deficiencies related to four key issues OECA uncovered in its State Review Framework
process: penalty calculation, identification of significant violations, data quality, and taking
timely and appropriate enforcement actions.

The OIG selected the 46 criteria to provide a broad indication of how current MOAs address
issues that OECA has identified as lacking in State enforcement programs. Although all of the
criteria included in CFR sections 123.24, 123.26, and 123.27 may not have been required at the
time MOAs were initially negotiated between EPA regions and States, these sections represent
the key criteria for determining whether States with NPDES authority have demonstrated to EPA
that they can address permitting requirements, compliance reviews and inspections, and
enforcement actions. Our criteria included Title 40 CFR 123.26 and 123.27, even though those
regulations are not required of MOAs, because they are related to the four programmatic
deficiencies that OECA identified through its State Review Framework assessments (listed in
Chapter 1).

OIG rated each of the 46 EPA-provided MOAs for its inclusion of statements addressing each
regulation. For each of the 46 criteria included in a spreadsheet guide (shown in Appendix A),
team members rated the MOA as a “0” (does not address this element), “1” (addresses the
element in some way), or “2” (addresses the element verbatim, or in synonymous language).
Each MOA thus received an overall score in our analysis that could be a maximum of 92 points.
The OIG evaluation team did not deem this system comprehensive; rather, it is an indicator of
MOA completeness.

Prior GAO and OIG Work
OIG staff reviewed past oversight reports from the EPA OIG and GAO relating to EPA oversight
of State enforcement issues. In particular, we reviewed those reports that cite MOAs or other
EPA-State agreements as a root cause of enforcement deficiencies. These reports informed our
evaluation design and background.

GAO

Longstanding Issues Impact EPA’s and States’ Enforcement Efforts. GAO-10-165T,
   October 15, 2009.

Environmental Enforcement: EPA Needs to Improve the Accuracy and Transparency of
   Measures Used to Report on Program Effectiveness. GAO-08-1111R, September 18, 2008.

Collaborative EPA State Effort Needed to Improve Performance Partnership System. GAO/T-
   RCED-00-163, May 2, 2000.

Environmental Protection: More Consistency Needed Among EPA Regions in Approach to
   Enforcement. GAO/RCED-00-108, June 2000.




                                               22 

                                                                                   10-P-0224 



Environmental Protection: EPA’s and States’ Efforts to Focus State Enforcement Programs on
   Results. RCED-98-113, May 27, 1998.
Water Pollution: Many Violations Have Not Received Appropriate Enforcement Attention.
   GAO/RCED-96-23, March 20, 1996.

EPA OIG

Better Enforcement Oversight Needed for Major Facilities with Water Discharge Permits in
    Long-Term Significant Noncompliance. Report No. 2007-P-00023, May 14, 2007.

EPA Region 6 Needs to Improve Oversight of Louisiana's Environmental Programs.
  Report No. 2003-P-00005, February 3, 2003.

State Enforcement of Clean Water Act Dischargers Can Be More Effective.
    Report No. 2001-P-00013, August 14, 2001.

North Carolina NPDES Enforcement and EPA Region 4 Oversight. Report No. 2000-P-00025,
   September 28, 2000.




                                             23 

                                                                                         10-P-0224


                                                                                  Appendix C

             OIG Analysis of MOAs by CFR Section

                                             CFR
                        CFR General       Compliance          CFR
                          Program         Evaluation      Enforcement        Overall
                        Requirements     Requirements     Requirements     Avg. Score      Total Score
                 MOA     Avg. Score       Avg. Score       Avg. Score      (Scale: 0 –     (Scale: 0 –
                 Date   (Scale: 0 – 2)   (Scale: 0 – 2)   (Scale: 0 – 2)       2)              92)
Alabama          2008       1.40             1.19             0.64            1.09            50.3
Alaska           2008       1.71             1.81             1.36            1.64            75.3
Arizona          2002       1.94             1.88             0.57            1.50            69.0
Arkansas         1995       1.81             1.69             0.93            1.50            69.0
California       1973       0.98             0.31             0.43            0.58            26.7
Colorado         1974       1.02             1.25             0.50            0.94            43.3
             1
Connecticut      1980       1.06             1.31             0.36            0.93            43.0
Delaware         1983       1.17             0.44             0.36            0.67            30.7
Florida          2007       1.75             1.13             0.71            1.22            56.0
Georgia          2007       1.63             1.35             0.32            1.13            52.2
Hawaii           1985       0.69             1.25             0.79            0.91            42.0
         1
Illinois         1977       0.31             1.50             1.71            1.15            53.0
Indiana          1977       1.06             0.69             0.00            0.61            28.0
Iowa             1978       1.38             0.88             0.57            0.96            44.0
Kansas           1973       0.52             0.00             0.00            0.18             8.3
Kentucky         2008       1.88             1.50             1.14            1.52            70.0
Louisiana        2004       1.69             1.38             0.57            1.24            57.0
        1
Maine            2000       1.88             1.94             1.36            1.74            80.0
Maryland         1998       1.10             1.00             0.21            0.80            36.7
Michigan         1973       0.85             0.56             0.07            0.51            23.7
Minnesota        1974       0.92             0.19             0.07            0.41            18.7
Mississippi      2008       1.71             1.19             0.50            1.16            53.3
Missouri         1974       1.25             0.44             0.07            0.61            28.0
           1
Montana          2000       1.35             1.38             0.79            1.19            54.7
Nebraska         1974       0.48             0.38             0.00            0.30            13.7
Nevada           1994       1.31             1.44             0.50            1.11            51.0
New Jersey       1981       1.58             1.75             1.21            1.53            70.3
New York         1975       0.81             0.06             0.00            0.30            14.0
North Carolina   2007       1.58             1.19             0.50            1.12            51.3
North Dakota     1989       1.75             1.50             0.86            1.39            64.0
Ohio             1974       1.50             0.63             0.00            0.74            34.0
Oklahoma         1997       1.88             1.44             0.43            1.28            59.0
Oregon           1973       1.21             0.50             0.00            0.59            27.3
Pennsylvania     1991       1.33             1.44             0.00            0.96            44.3
Rhode Island     1984       1.48             0.63             0.57            0.91            41.7
South Carolina   1994       1.44             1.13             0.64            1.09            50.0
South Dakota     1993       1.40             0.75             0.29            0.83            38.3



                                             24 

                                                                                                     10-P-0224 




                                                     CFR
                              CFR General         Compliance            CFR
                                Program           Evaluation        Enforcement          Overall
                              Requirements       Requirements       Requirements       Avg. Score       Total Score
                     MOA       Avg. Score         Avg. Score         Avg. Score        (Scale: 0 –      (Scale: 0 –
                     Date     (Scale: 0 – 2)     (Scale: 0 – 2)     (Scale: 0 – 2)         2)               92)
 Tennessee           2007         1.81               1.31               1.14              1.43             66.0
 Texas               1998         1.27               1.63               0.14              1.05             48.3
 Utah                1987         1.38               1.13               0.43              1.00             46.0
 Vermont             1984         0.56               0.88               0.14              0.54             25.0
 Virginia            1975         1.27               0.31               0.00              0.55             25.3
 Washington          1989         1.06               1.63               0.36              1.04             48.0
 West Virginia       1982         1.40               0.44               0.36              0.75             34.3
 Wisconsin           1974         1.33               0.44               0.00              0.62             28.3
 Wyoming             1975         1.46               1.69               0.93              1.38             63.3
Source: OIG analysis of data obtained from State MOAs reviewed.
        1
          The OIG did not receive signed and dated MOAs. The OIG estimated these dates based on the OECA

        documentation provided. 

        2
          South Carolina still operated under a 1994 MOA, but Region 4 and South Carolina were working on a 

        revised MOA at the time this report was issued. 





                                                      25 

                                                                                     10-P-0224 



                                                                                 Appendix D

               Agency Response and OIG Comment
                                         July 27, 2010

MEMORANDUM

SUBJECT: 	 Response to the Office of Inspector General Draft Report, EPA Should Revise
           EPA-State Clean Water Act Agreements, No. 2010-1033, June 9, 2010

TO:    	      Arthur Elkins Jr.
              Inspector General

I am transmitting our response to the draft report, EPA Should Revise EPA-State Clean
Water Act Agreements, No. 2010-1033, June 9, 2010, which focuses on assessing the
effectiveness of memoranda of agreement between the U.S. Environmental Protection
Agency and states pursuant to the National Pollutant Discharge Elimination System program.
We thank your office for undertaking this review; we believe it will help us in achieving our
goals of improving the quality of our oversight of state environmental programs and
ultimately the level of state performance in administering NPDES programs. While we
generally agree with the analysis and recommendations of the report, we offer the following
comments.

MOAs are not the sole mechanism for management control of the NPDES program

On the first page of the report in the "What We Found" section and elsewhere throughout
the document, the report finds that "NPDES MOAs between EPA and States do not ensure
Agency management control and effective oversight over a national program administered
by States that is capable of providing equal protection to all Americans." The analysis in this
report is incomplete in supporting this statement. While we agree that inadequate MOAs
may not support our efforts to ensure an effective state program, there are multiple layers of
management controls and oversight programs that address the implementation and
performance of the NPDES program but were not included in this review. These layers of
controls and reviews, which include compliance and enforcement, also are relied upon to
ensure an effective state program. For example, the Office of Water ensures adequate
implementation of the NPDES permitting program through Performance Partnership
Agreements, CWA Section 106 grant-work plans and associated measures, and program and
permit-quality reviews and associated action items. The Office of Enforcement and
Compliance Assurance uses enforcement agreements, Performance Partnership Agreements,
grant-work plans, biannual regional reviews and the State Review Framework. Thus, while
MOAs are one tool used by the EPA to ensure management control and effective oversight
over state NPDES programs, they are not the only tool used to determine the health of a state
program. Deficiencies in MOAs can be offset by or addressed through other management


                                              26 

                                                                                                    10-P-0224 



tools. We ask that the report be modified to reflect the multiple layers of management
controls, with MOAs as just one of those layers, albeit an important one.

         OIG Response: The OIG believes the report adequately characterizes the
         multiple layers of management controls. More specifically, the report notes,
         “As part of a system of national management controls, the CFR requires
         authorization MOAs between EPA and every State operating an NPDES
         enforcement program.” The report also indicates that the MOAs are part of a
         layered system: “Although the foundations of the EPA-State enforcement
         relationship are built upon authorization agreements and the accompanying
         MOAs, EPA and States also use other annual and multiyear planning tools to
         set short-term expectations, establish measures, and set performance goals. The
         annual and multiyear planning documents used by EPA regions and States vary
         by region and by State, and are not required by regulation. A senior EPA
         official described the EPA-State NPDES relationship as a ‘layer cake,’ with
         several layers of documents and agreements. The official said that EPA plans
         to address the multilayered EPA-State structure by simplifying the State-EPA
         enforcement process and accompanying document requirements.”

Methodology

To conduct its analysis, the OIG identified 48 regulatory requirements contained in 40
CFR Sections 123.24, 123.26, and 123.27, which apply to the enforcement component of
NPDES programs. The requirements used by the OIG include some that apply to the MOA
documents themselves (40 CFR Section123.24), but nearly two-thirds are NPDES program
requirements not explicitly required in the MOAs (40 CFR Sections 123.26 and 123.27).
This approach was helpful in that it demonstrates how many enforcement-related provisions
are included in the MOAs. However, this analysis may not necessarily result in the
identification of those MOAs with the most significant deficiencies because it gives equal
weight to all requirements. For example, the provision in 40 CFR Section 124.24(a) requiring
that an "MOA [have] no provisions restricting EPA’s statutory oversight authority" is
weighted the same as the provisions in 40 CFR Section 123.24(b)(l .l-1.3), which require the
transfer of permits from the EPA to the state. The former is crucially important for program
oversight, whereas the latter is likely moot at this time as all relevant permits have been
transferred from the EPA to states, with the exception of some permits EPA Region 10 has
issued in Alaska2. Moreover, the methodology does not identify which elements are most
important to ensuring program performance, may not be related to actual program
performance or are covered by other agreements or guidance. We ask that the report be
modified to acknowledge that some requirements are more important than others in terms of
ensuring program performance.



2
  On October 31, 2008, EPA authorized Alaska to assume responsibility for the NPDES program in phases, pursuant
to section 402(n) (4) of the Clean Water Action. 73 Fed. Reg. 66243, 66244 (November 7, 2008). EPA expects to
transfer all relevant permits to the State by October 31, 2011. Id.


                                                      27 

                                                                                      10-P-0224 



        OIG Response: The OIG analysis was intended as an objective assessment of
        MOA compliance with the CFR. The OIG assessment does not address State
        program performance, only MOA completeness. The report notes that the OIG
        included additional elements (in 40 CFR 123.26 and 123.27) based on OECA’s
        findings from the State Review Framework process. The OIG presents one
        method for assessing MOA quality, and report recommendation 2-2 directs the
        Deputy Administrator to “develop a systematic approach to identify which
        States have outdated or inconsistent MOAs, renegotiate and update those
        MOAs using the MOA template, and secure the active involvement and final,
        documented concurrence of Headquarters to ensure national consistency.” In
        developing this approach, the Deputy Administrator can choose to assign
        weights to those aspects of NPDES MOAs that he deems most important.

Recommendations

2-1 We agree that a national MOA template is a useful tool in establishing nationally
consistent MOAs. We have an existing template from 1986, but we agree that it could be
updated to be more useful. We note that the EPA is in the midst of implementing the Clean
Water Act Action Plan, which will result in new approaches for improving compliance and
water quality. We suggest that any action to refine the existing MOA template take place in
coordination with the development of new approaches identified through this process.

        OIG Response: The OIG agrees with the Agency’s proposed actions in
        response to recommendation 2-1. The recommendation is open with agreed-to
        actions pending. In its final response to this report, EPA should provide
        estimated or actual completion dates for this recommendation.

2-2 We agree that a systematic effort to identify and review problematic MOAs and
update them, as appropriate, could assist in improving program performance and should be
incorporated into existing periodic reviews of state programs. We do not agree, however, that
renegotiating MOAs is the only way to address an inadequate state program. MOAs are two-
party agreements and willingness to make certain modifications will vary from state to state.
Therefore, renegotiating MOAs can be time-consuming and unpredictable and, in light of our
preceding comments about the variety of tools used to exercise management control over
state NPDES programs, may not be the most timely or effective mechanism. It is important
that the EPA maintain flexibility to develop and use these other types of mechanisms such as
enforcement agreements that supplement an MOA in cases where renegotiating an MOA
proves impracticable or would do little to substantially improve a state's program. This
approach was suggested in the Clean Water Act Action Plan.

In responding to Recommendation 2-2, we propose that the Office of Enforcement and
Compliance Assurance and the Office of Water work together to integrate more closely our
existing program-review processes and specifically to include the review of existing MOAs
based on the new template as part of this process. Our goal in this effort would be to identify
and correct those MOAs that present the greatest barriers to state program performance,


                                              28 

                                                                                    10-P-0224 



implement other solutions and approaches to achieve the maximum environmental and
public health benefits in light of any deficiencies identified or both.

        OIG Response: The response does not mention MOAs that are outdated by the
        current CWA. To maintain consistent, effective management control, MOAs
        must be current so as to take into account the most up-to-date CWA
        requirements, as reflected in the CFR. The OIG commends both OECA and
        OW for proposing to work together to integrate more closely their existing
        program-reviews processes. The recommendation is undecided with agreed-to
        actions pending. In its final response to this report, EPA should provide
        estimated or actual completion dates for this recommendation.

2-3 We agree that establishing processes, as discussed above, for reviewing MOAs as
part of our ongoing program reviews would be useful and would assist in ensuring nationally
consistent program performance over time.

        OIG Response: The OIG agrees with the Agency’s proposed actions in
        response to recommendation 2-3. The recommendation is open with agreed-to
        actions pending. In its final response to this report, EPA should provide
        estimated or actual completion dates for this recommendation.

2-4 We agree that maintaining a publicly available repository of MOAs would improve
transparency and accountability.

        OIG Response: The OIG agrees with the Agency’s proposed actions in
        response to recommendation 2-4. The recommendation is open with agreed-to
        actions pending. In its final response to this report, EPA should provide
        estimated or actual completion dates for this recommendation.

Please see the attachment for specific technical corrections and comments. Should you
have any questions or concerns about this response, please contact Nena Shaw at (202) 564-
5106.


Bob Perciasepe /s/

Attachment




                                            29 

                                                                                10-P-0224


                                                                              Appendix E

                                   Distribution
Office of the Administrator
Deputy Administrator
Assistant Administrator for Enforcement and Compliance Assurance
Assistant Administrator for Water
Director, Office of Regional Operations
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-up Coordinator, Office of Enforcement and Compliance Assurance
Inspector General




                                           30 

